<html>
<title> - SECURING THE PROMISE OF THE INTERNATIONAL SPACE STATION: CHALLENGES AND OPPORTUNITIES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                        SECURING THE PROMISE OF
                    THE INTERNATIONAL SPACE STATION:
                      CHALLENGES AND OPPORTUNITIES

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                       WEDNESDAY, MARCH 28, 2012

                               __________

                           Serial No. 112-72

                               __________

 Printed for the use of the Committee on Science, Space, and Technology





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






       Available via the World Wide Web: http://science.house.gov


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

73-605 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY














                            C O N T E N T S

                             March 28, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     8
    Written Statement............................................     9

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    10
    Written Statement............................................    12

Prepared Statement by Representative Jerry Costello, Ranking 
  Member, Subcommittee on Space and Aeronautics, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    13

                               Witnesses:

Mr. William H. Gerstenmaier, Associate Administrator, Human 
  Exploration and Operations Mission Directorate, National 
  Aeronautics and Space Administration
    Oral Statement...............................................    14
    Written Statement............................................    17

Mrs. Cristina Chaplain, Director, Acquisition and Sourcing 
  Management, U.S. Government Accountability Office
    Oral Statement...............................................    27
    Written Statement............................................    29

Air Force Lieutenant General Thomas P. Stafford, Chairman, Nasa 
  Advisory Council ISS Operational Readiness Task Force
    Oral Statement...............................................    44
    Written Statement............................................    46

Discussion.......................................................    49

             Appendix 1: Answers to Post-Hearing Questions

Mr. William H. Gerstenmaier, Associate Administrator, Human 
  Exploration and Operations Mission Directorate, National 
  Aeronautics and Space Administration...........................    66

Mrs. Cristina Chaplain, Director, Acquisition and Sourcing 
  Management, U.S. Government Accountability Office..............    91

             Appendix 2: Additional Material for the Record

GAO Contacts and Staff Acknowledgements..........................    98

 
                        SECURING THE PROMISE OF
                    THE INTERNATIONAL SPACE STATION:
                      CHALLENGES AND OPPORTUNITIES

                              ----------                              


                       WEDNESDAY, MARCH 28, 2012

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 9:36 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Ralph Hall 
[Chairman of the Committee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Hall. The Committee on Science, Space, and 
Technology will come to order. Good morning.
    Before we get started, I would like to ask our witnesses to 
indulge us for just a few minutes to take care of some 
Committee business. It is my understanding that Ms. Johnson as 
the Ranking Member of the full Committee has some housekeeping 
that she wants the Committee to undertake regarding the 
Democratic Caucus Subcommittee Ranking Member assignments and 
rosters. It will just take a minute or so. The proposed 
modified roster is in front of each of you.
    I now recognize Ranking Member Johnson to explain and make 
a motion regarding the change in the Democratic Caucus 
Subcommittee ranking Member assignments and rosters. Ms. 
Johnson.
    Ms. Johnson. Thank you very much, Mr. Hall.
    We have a couple of Subcommittee vacancies to fill on the 
Democratic side, and pursuant to direction from the Democratic 
Caucus of the Committee, I move that the following Subcommittee 
assignments be made: Mr. Costello of Illinois to serve as 
Ranking Member of the Subcommittee on Space and Aeronautics, 
and that Ms. Bonamici of Oregon to serve on the Subcommittees 
on Research and Science Education and Technology and 
Innovation.
    Chairman Hall. Without objection, it is so ordered. Now I 
ask unanimous consent that the Committee adopt the revised 
roster in front of them reflecting these appointments as 
outlined by Ranking Member Johnson, and hearing no objection, 
the revised roster is adopted. Amen.
    I would like to welcome everyone to today's hearing 
entitled ``Securing the Promise of the International Space 
Station: Challenges and Opportunities.'' In front of all the 
members are packets containing the written testimony, 
biographies, and the Truth in Testimony disclosures for today's 
witnesses. I recognize myself now for five minutes for an 
opening statement.
    I want to welcome everyone to today's hearing, and once 
again thank our witnesses for their time and their preparation 
and for sharing their experience and wisdom on the important 
topic of the International Space Station. The title of hearing 
describes what we hope NASA can accomplish, and that is 
``Securing the Promise of the International Space Station.''
    The ISS is an extraordinary engineering achievement, and it 
is a remarkably successful international collaboration that 
presents us an unprecedented opportunity to accomplish 
beneficial scientific research. I would like to see the ISS 
live up to its promising potential. I would like to see it 
enable scientists and researchers to do innovative research, 
the kind of lifesaving biomedical research that can only be 
done in space. Fulfilling the promise of the ISS would not only 
serve humanity, it would also strengthen America's leadership 
in science, technology, and education.
    I am often painfully reminded that NASA will rely on our 
Russian partners for crew transportation to International Space 
Station for the next several years; however, for the purposes 
of today's hearing, we are not focusing on crew.
    Fortunately there are a number of options for delivering 
the supplies and equipment necessary to conduct the research 
and utilize the International Space Station. Our international 
partners contribute three different launch systems that are 
vital for maintaining and utilizing the International Space 
Station, and there are two domestic commercial cargo 
capabilities that will be tested later this year. In fact, the 
most recent European Automated Transfer Vehicle, the ATV, was 
launched Friday and should dock to the Space Station sometime 
around 6:30 p.m. today, this very day. We are reliant on the 
Russian Progress, the European Automated Transfer Vehicle and 
the Japanese H-2 Transfer Vehicle, but NASA does not have 
agreements with the European Space Agency to supply more 
Automated Transfer Vehicles after 2014, or with the Japanese 
Space Agency to supply H-2 Transfer Vehicles after 2016.
    Now that NASA has finished International Space Station 
construction, I hope the incredible potential of the space 
station is not squandered because research funding is 
shortchanged, or because of poor coordination managing the U.S. 
National Lab, or because of reductions in launch capacity to 
support it, or because NASA just can't get the job done.
    The President cancelled Constellation by running a line 
through it because of, so he said, someone else's failure to 
act, and he has become pretty adept at naming mistakes after 
other people other than himself. Sometimes he needs to look in 
the mirror and tell us why we are losing the pipeline and why 
we are going to get $5 gasoline.
    I also want to reiterate again that the NASA Authorization 
Act of 2010 directed that the Space Launch System and the Orion 
crew capsule be designed to provide a backup capability for 
access to the space station. After spending tens of billions of 
dollars to build the space station, Congress wanted to ensure 
that a national capability to access it was not jeopardized by 
overreliance on untested commercial propositions.
    Supplying and utilizing the International Space Station is 
simply too important to be left to others. Yet, NASA is pacing 
the development of Space Launch System and Orion to be 
operational around 2021, which could occur after the 
International Space Station's retirement. That is risky and 
borders on being outrageous. America's continued leadership in 
space, and our national security, depend in large part on 
developing and maintaining this critical capability. I can't 
stress enough the importance of accelerating this launch system 
to ensure we have an alternative method to transport people and 
cargo to the International Space Station as well as to launch 
future missions beyond low Earth orbit.
    I look forward to today's hearing.
    [The prepared statement of Mr. Hall follows:]

              Prepared Statement of Chairman Ralph M. Hall

    I want to welcome everyone to today's hearing, and once again thank 
our witnesses for their time and preparation, and for sharing their 
experience and wisdom on the important topic of the International Space 
Station. The title of our hearing describes what we hope NASA can 
accomplish, ``Securing the Promise of the International Space 
Station.'' The ISS is an extraordinary engineering achievement. And it 
is a remarkably successful international collaboration that presents us 
an unprecedented opportunity to accomplish beneficial scientific 
research. I would like to see the ISS live up to its promising 
potential. I would like to see it enable scientists and researchers to 
do innovative research--the kind of life-saving biomedical research--
that can only be done in space. Fulfilling the promise of the ISS would 
not only serve humanity, it would also strengthen America's leadership 
in science, technology and education.
    I am often painfully reminded that NASA will rely on our Russian 
partners for crew transportation to ISS for the next several years; 
however, for the purposes of today's hearing, we're not focusing on 
crew. Fortunately there are a number of options for delivering the 
supplies and equipment necessary to conduct the research and utilize 
the ISS. Our international partners contribute three different launch 
systems that are vital for maintaining and utilizing the ISS, and there 
are two domestic commercial cargo capabilities that will be tested 
later this year. In fact, the most recent European Automated Transfer 
Vehicle (ATV) was launched Friday and should dock to the Space Station 
around 6:30 this evening. We are reliant on the Russian Progress, the 
European Automated Transfer Vehicle and the Japanese H-2 Transfer 
Vehicle (HTV), but NASA does not have agreements with the European 
Space Agency to supply more Automated Transfer Vehicles after 2014, or 
with the Japanese Space Agency to supply H-2 Transfer Vehicles after 
2016.
    Now that NASA has finished ISS construction, I hope the incredible 
potential of ISS is not squandered because research funding is 
shortchanged, or because of poor coordination managing the U.S. 
National Lab, or because of reductions in launch capacity to support 
it, or because NASA just can't get the job done.
    I also want to reiterate that the NASA Authorization Act of 2010 
directed that the Space Launch System and the Orion crew capsule be 
designed to provide a back-up capability for access to the ISS. After 
spending tens of billions of dollars to build the space station, 
Congress wanted to ensure that a national capability to access it was 
not jeopardized by overreliance on untested commercial propositions.
    Supplying and utilizing the ISS is simply too important to be left 
to others. Yet, NASA is pacing the development of Space Launch System 
and Orion to be operational around 2021, which could occur after ISS 
retirement. America's continued leadership in space, and our national 
security, depend in large part on developing and maintaining this 
critical capability. I cannot stress enough the importance of 
accelerating this launch system to ensure we have an alternative method 
to transport people and cargo to ISS as well as to launch future 
missions beyond low Earth orbit.I look forward to today's hearing and I 
now recognize my good friend from Texas, Ranking Member Eddie Bernice 
Johnson.

    Chairman Hall. I now recognize my good friend from Texas, 
Ranking Member Eddie Bernice Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman, and good 
morning. I want to join Chairman Hall in welcoming all of our 
witnesses to today's hearing, and in addition, I would like to 
express my appreciation in particular to one of the witnesses, 
Lieutenant General Thomas Stafford, for his decades of service 
to this country and his continuing effort to strengthen and 
promote the Nation's civil and military aerospace capabilities.
    As this Committee attempts to better understand the needs 
of our civil space program in these times of fiscal pressures, 
it is important to take a close look at one of the most 
important elements of the Nation's human spaceflight program, 
namely, the International Space Station.
    While the road to its completion has been a long one, with 
many twists and turns along the way, the Space Station stands 
as one of the engineering marvels of the modern age, and a 
testament to American ingenuity and perseverance. Now, there is 
a lot one could say about the International Space Station, but 
I think the citation that accompanied the award to the ISS team 
of the 2009 Collier Trophy, one of the aerospace profession's 
premier awards, sums up what has been accomplished. That is, 
``the design, development, and assembly in space of the world's 
largest spacecraft, an orbiting laboratory, promising new 
discoveries for mankind and setting new standards for 
international cooperation in space.''
    I would go further, and also note that it is an 
accomplishment that has had great inspirational value for our 
young people, as evidenced by the intense interest of our 
students in talking to the orbiting astronauts and in 
developing science projects that might fly on the Station.
    However, while we can talk about the promise offered by the 
ISS in enabling future space exploration as well as carrying 
out basic and applied research that can benefit life here on 
Earth, its success in fulfilling that promise is not assured. 
We will only realize its promise if NASA and Congress ensure 
that the necessary steps are taken to make the ISS a productive 
research facility and technology test bed, and that is what we 
need to address at today's hearing.
    I understand the importance of trying to maintain 
uninterrupted access to ISS, and I know that we will hear 
testimony today on some of the challenges in doing so. However, 
we should not forget that the purpose of cargo and crew 
transportation systems is to support the utilization of the 
Space Station, not as ends in themselves.
    The reality is that the ISS is a perishable commodity, and 
``the future is really now'' in terms of utilizing this unique 
facility. While some may hope to extend its agreed-upon service 
life past 2020, we need to make sure that the eight years that 
remain until the current end of the ISS program are used 
effectively to answer the research and engineering questions 
that can only be answered by on the ISS.
    In short, we need clear, prioritized and integrated 
utilization plans from NASA, and we need to be assured that 
those plans are being carried out, both by NASA and by the 
independent International Space Station research management 
organization, CASIS, that was set up for that purpose. The 
former director of CASIS raised a number of serious concerns in 
her recent resignation letter, and this Committee will need to 
better understand what the situation at CASIS is, given its 
important role in International Space Station utilization.
    As a result, Mr. Chairman, I hope that this Committee will 
convene another hearing before this session of Congress is over 
to examine all of the issues faced by the research community in 
trying to utilize the space station, as well as in carrying out 
related ground-based research and development. We need to hear 
from representatives of that community in addition to the 
testimony we will get from our distinguished panel testifying 
before us today.
    Before I close, I would just like to make one more point. 
Namely, if we want to ensure that the space station carries out 
the needed research and technology activities in a timely and 
productive fashion, we have to be willing to make the needed 
investments. The ISS research budget is stagnating, and the 
agency's life and microgravity research budget has been cut 
deeply over the past decade. That does not seem to me to be a 
formula for success.
    I am afraid that we get numb from the continued chipping 
away at NASA's accounts by both Congress and successive 
Administrations. However, those continued cuts have had a 
negative impact on NASA's ability to carry out its missions 
that we should not ignore. In spite of those negative impacts, 
the budget resolution that we will be voting on later this week 
would make additional cuts to the account that funds NASA and 
other R&D agencies. I hope that this Congress thinks twice 
before we embrace such cuts to an agency that is so important 
as NASA.
    In closing, I again want to welcome our witnesses and look 
forward to the testimony, and I yield back the balance of time 
that I don't have. Thank you.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    Good morning. I want to join Chairman Hall in welcoming all of our 
witnesses to today's hearing. In addition, I would like to express my 
appreciation in particular to one of those witnesses--Lt. Gen. Thomas 
P. Stafford--for his decades of service to this country and his 
continuing efforts to strengthen and promote the Nation's civil and 
military aerospace capabilities.
    As this Committee attempts to better understand the needs of our 
civil space program in these times of fiscal pressures, it is important 
to tak a close look at one of the most important elements of the 
Nation's human spaceflight program, namely, the International Space 
Station.
    While the road to its completion has been a long one, with many 
twists and turns along the way, the ISS stands as one of the 
engineering marvels of the modern age, and a testament to American 
ingenuity and perserverance. There is a lot one could say about the 
ISS, but I think the citation that accompanied the award to the ISS 
team of the 2009 Collier Trophy--one of the aerospace profession's 
premier awards--sums up what has been accomplished. That is, ``the 
design, development, and assembly in space of the world's largest 
spacecraft, an orbiting laboratory, promising new discoveries for 
mankind and setting new standards for international cooperation in 
space.''
    I would go further and also note that it is an accomplishment that 
has had great inspirational value for our young people, as evidenced by 
the intense interest of our students in talking to the orbiting 
astronauts and in developing science projects that might fly on the 
Station.
    However, while we can talk about the promise offered by the ISS in 
enabling future space exploration as well as carrying out basic and 
applied research that can benefit life here on Earth, its success in 
fulfilling that promise is not assured. We will only realize its 
promise if NASA and Congress ensure that the necessary steps are taken 
to make the ISS a productive research facility and technology test bed, 
and that is what we need to address at today's hearing.
    I understand the importance of trying to maintain uninterrupted 
access to the ISS, and I know that we will hear testimony today on some 
of the challenges in doing so. However, we should not forget that the 
purpose of cargo and crew transportation systems is to support the 
utilization of the ISS, not as ends in themselves.
    The reality is that the ISS is a perishable commodity, and ``the 
future is now'' in terms of utilizing this unique facility. While some 
may hope to extend its agreed-upon service life past 2020, we need to 
make sure that the eight years that remain until the current end of the 
ISS program are used effectively to answer the research and engineering 
questions that can only be answered on the ISS.
    In short, we need clear, prioritized, and integrated utilization 
plans from NASA, and we need to be assured that those plans are being 
carried out, both by NASA and by the independent ISS research 
managemenet organization, CASIS, that was set up for that purpose. The 
former director of CASIS raised a number of serious concerns in her 
recent resignation letter, and this Committee will need to better 
understand what the situation at CASIS is, given its important role in 
ISS utilization.
    As a result, Mr. Chairman, I hope that this Committee will convene 
another hearing before this Session of Congress is over to examine all 
of the issues faced by the research community in trying to utilize the 
ISS, as well as in carrying out related ground-based R&D. We need to 
hear from representatives of that community in addition to the 
testimony we will get from the distinguished panel testifying before us 
today.
    Before I close, I would just like to make one more point. Namely, 
if we want to ensure that the ISS carries out the needed research and 
technology activities in a timely and productive fashion, we have to be 
willing to make the needed investments. The ISS research budget is 
stagnating, and the agency's life and microgravity sciences budget has 
been cut deeply over the past decade. That does not seem to me to be a 
formula for success.
    I am afraid that we get numb from the continued chipping away at 
NASA's accounts by both Congress and successive Administrations. 
However, those continued cuts have had a negative impact on NASA's 
ability to carry out its missions that we should not ignore. In spite 
of those negative impacts, the budget resolution that we will be voting 
on later this week would make additional cuts to the account that funds 
NASA and other R&D agencies. I hope that this Congress thinks twice 
before we embrace such cuts to an agency as important as NASA.
    In closing, I again want to welcome our witnesses, and I look 
forward to your testimony. I yield back the balance of my time.

    Chairman Hall. Thank you, Ms. Johnson.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    [The prepared statement of Mr. Costello follows:]

    Prepared Statement of Ranking Subcommittee Member Jerry Costello

    Mr. Chairman, thank you for holding today's hearing to review the 
International Space Station and what NASA is doing to make sure it can 
be used effectively through at least 2020.
    Some have called the ISS the greatest engineering feat ever. After 
a dozen years of assembly in space, we now have a fully functioning 
orbital laboratory, and I commend the men and women of NASA and its 
contractors for making ISS asssembly look easy, because it was far from 
that.
    The ISS Program was awarded the coveted Collier Trophy by the 
National Aeronautic Association in recognition of its singular 
achievement in designing, developing, and assembling in space this 
unique orbiting outpost.
    With all that it took to get the ISS to where it is today, we must 
ensure it is fully utilized so U.S. taxpayers can see a return on their 
investment of over $50 billion.
    Congress stressed the importance of ISS utilization in numerous 
authorization and appropriations Acts.
    For example, the 2010 NASA Authorization Act directed NASA to 
``take steps to maximize the productivity and use of the ISS with 
respect to scientific and technological research and development, 
advancement of space exploration, and international collaboration.''
    Before we can make concrete plans for sending humans to explore 
far-away places like Mars, we need to better understand how to deal 
with such unknowns as radiation and bone loss and how human beings 
react to being in a closed environment in space for months, even years, 
at a time.
    The ISS is a unique platform that will help us do the research 
necessary to gain such understanding.
    Furthermore, the ISS will provide other federal agencies and 
industry with unparalleled microgravity facilities to do research on 
their own, and in September 2011, NASA awarded a cooperative agreement 
to an independent, non-profit entity to expand such non-NASA research 
as part of the U.S. National Laboratory.
    That organization, however, is off to a rocky start, given the 
abrupt resignation of its Executive Director.
    With the clock ticking on getting the ISS to a full and productive 
state, I hope to understand how NASA will ensure that this independent 
entity will enhance and augment ISS research, as directed in the 2010 
Authorization Act.
    I want to welcome this distinguished panel of experts and hope 
their insights can help shed further light on how we can better 
position the ISS to enable it to reach its full potential, including 
the possibility of it contributing to medical or other breakthroughs to 
make life better here on Earth.
    Thank you, Mr. Chairman, and I yield back the balance of my time.

    Chairman Hall. At this time, I would like to introduce our 
witnesses. Our first witness is Mr. William H. Gerstenmaier, 
Associate Administrator of the Human Exploration and Operations 
Mission Directorate at the National Aeronautics and Space 
Administration. As a supporter of human spaceflight, I am very 
grateful to Mr. Gerstenmaier's dedication and long-term service 
to the Nation. Mr. Gerstenmaier began his career with NASA in 
1977 and has steadily advanced in the ranks. Over the past 20 
years, he has been instrumental in the successful management of 
NASA's human space exploration program, and welcome, Mr. 
Gerstenmaier. Welcome very much.
    And our second witness is Mrs. Cristina Chaplain, the 
Director of Acquisition and Sourcing Management for the U.S. 
Government Accountability Office. Ms. Chaplain has a degree 
from Boston University and from Columbia University, and has 
been with GAO for over 20 years. She has conducted a number of 
assessments for NASA's major acquisition programs including a 
recent review on utilization and sustainment of the 
International Space Station. Ms. Chaplain, we thank you and 
your staff at GAO for your service and look forward to your 
testimony today.
    As impressive as our first two witnesses are, I have saved 
what my speechwriter wrote here, the best for the last. I will 
let you all make that decision. It is as bad as judging a baby 
contest, and I know better than that. Our third and final 
witness is retired U.S. Air Force Lieutenant General Thomas P. 
Stafford, one of the most unusual men I know and one of the 
dearest friends I have. He is Chairman of the International 
Space Station Advisory Committee. Tom's many accomplishments 
are legendary, and his distinguished service was acknowledged 
again when we recently awarded the prestigious 2011 Wright 
Brothers Memorial Trophy for his ``pioneering achievements that 
have led the way to the Moon, to greater international 
cooperation in space, and to a safer America.'' And just one 
person per year gets that recognition. General Stafford had 
played instrumental roles in many of America's successes in 
space, from the Gemini rendezvous and Apollo X missions with my 
other good friend, Gene Cernan, to the Apollo-Soyuz mission in 
1975 that laid the groundwork of trust and mutual respect among 
former adversaries that has been so critical to the success of 
today's International Space Station. Tom, thank you for your 
service to America and for testifying before us today.
    And as our witnesses should know, spoken testimony is 
limited to five minutes, after which Members of the Committee 
will have five minutes to ask their questions. We won't hold 
you to the five minutes. You are too valuable to us and your 
time is too valuable. You took your time to get ready to come 
here and give us this testimony, so we will be very lax on 
that.
    I recognize our first witness, Mr. William Gerstenmaier of 
NASA.

STATEMENT OF MR. WILLIAM GERSTENMAIER, ASSOCIATE ADMINISTRATOR,

     HUMAN EXPLORATION AND OPERATIONS MISSION DIRECTORATE,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Gerstenmaier. Thank you. As you have already stated, 
the ISS represents an unparalleled capability for human space-
based research that cannot be pursued on Earth as well as a 
platform for the development of exploration technologies. The 
ISS is the most sophisticated space research facility ever 
built. It contains state-of-the-art research laboratories from 
Russia, Europe, Japan, and the United States. It has amazing 
robotic capabilities from Canada. The facilities for research 
include a combustion rack, a fluid facility rack to investigate 
low-gravity fluid motion, external payload attach capabilities 
for Earth and deep-space viewing, and a window observation 
facility, among many other unique facilities. ISS is truly a 
model for engineering development and international 
collaboration.
    This facility was not easy to construct and faced huge 
challenges during its development. Approximately 37 shuttle 
flights and approximately 1,000 hours of space walks, or 162 
EVAs, went into its construction. Every shuttle flight had to 
occur precisely as scripted. The teams had to deal with loss of 
Columbia in mid-assembly, and numerous in-flight challenges 
such as loss of the wrist joint on the Canadian arm early in 
assembly, loss of all onboard computers on board the space 
station, and a tear in the solar ray blanket.
    The budget challenges were also huge. However, through it 
all, the amazing ISS team constructed this wonderful facility 
that we have on orbit today. The team showed an unbelievable 
ability to deal with unexpected problems and keep working 
together to complete construction. They did with behind-the-
scenes detailed planning. The teams worked to keep open the 
option for extra shuttle flights beyond the original plan 
manifest. This work gave decision makers options later to add 
these flights. In space operations, knowing when to make 
decisions is often as important as the decision itself.
    We are now facing a transition in ISS. We no longer need to 
focus on assembly, but we need to turn this dedicated team to 
using this amazing facility in space. The ingenuity, drive, and 
focus will now be applied to using the ISS for the benefit of 
all humankind. Through the conclusion of ISS expedition 28 in 
October of 2011, approximately 1,250 research investigations 
were performed that involved 1,309 principal investigators from 
63 countries around the world. Of these, U.S. principal 
investigators under NASA's sponsorship conducted 475 
investigations, 38 percent of that total. Expeditions 29 to 32, 
which covers the period from October of last year, 2011, to 
September of 2012, will include 259 investigations. In other 
words, approximately 20 percent as many investigations were 
performed in these two post-assembly expeditions as had been 
achieved in the prior 28 expeditions combined. We are starting 
to begin serious use of the International Space Station.
    The ISS teams as well as the research community need to be 
ready for this next phase. However, this utilization will not 
be easy. There will be start-up transients with commercial 
cargo. The teams have planned ahead with ATV, HTV, and STS-135. 
We will have about a year for the commercial providers to come 
online.
    Nothing in space is ever easy. The teams have the cargo 
ship to Japan for the HTV launch this summer. The cargo for the 
C2 mission is ready at KSC for launch on April 30th. The ATV 
will hopefully dock to the ISS tonight with critical supplies 
and research equipment. The teams have solid plans for the next 
year. We have always been dependent upon the Russians for crew 
rescue, but now we have a single method for crew 
transportation. This is a tremendous responsibility for the 
Russians.
    We are working to bring commercial crew online as soon as 
possible. This utilization phase will not be easy for the 
International Space Station team. However, based on their 
performance in assembly, this team now focused on research and 
utilization will accomplish amazing things. They will build off 
of the techniques learned during assembly and place the 
necessary international agreements for cargo in place at the 
right time. The research community will also need to be 
prepared for this new phase. The priority will be on research 
and utilization and not on assembly and maintenance. ISS will 
bring tangible and intangible benefits to humankind.
    The ISS will provide a facility for the human spaceflight 
team to prepare for voyages beyond low Earth orbit. ISS can be 
an economic engine and allow companies to use the unique 
properties of space-based research for competitive advantage. 
The International Space Station team will enable productive use 
of this amazing facility and will grow from the challenges 
ahead. ISS will be a bridge to the future. The teams are 
prepared. My written testimony expands on these thoughts and 
adds additional detail.
    I thank this Committee for its support and the chance to 
respond to your questions.
    [The prepared statement of Mr. Gerstenmaier follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Hall. I thank you.
    I now recognize Mrs. Chaplain of the GAO to present her 
testimony.

         STATEMENT OF MRS. CRISTINA CHAPLAIN, DIRECTOR,

              ACQUISITION AND SOURCING MANAGEMENT,

             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Chaplain. Mr. Chairman, Ranking Member Johnson and 
Members of the Committee, thank you for inviting us to talk 
about the International Space Station and the challenges 
associated with maximizing its very unique capabilities.
    Our work touches on a range of challenges facing the space 
station, and I will go over the major categories of those 
challenges and what we have said in recent years.
    The first area is whether ISS can safely operate for years 
to come. As you know, we recently reported that NASA is doing a 
very credible job in assessing the structural health and safety 
of the International Space Station, and that this is no easy 
task, given the uniqueness of the station and the limitations 
to making these assessments. They are still in the process of 
conducting structural assessments, however, and there may be 
issues that get pointed out in these assessments in the next 
few years that need mitigation that could affect things like 
cargo flights in the future.
    The second area we have looked at in recent years is the 
utilization of the station after its construction. When we did 
so, we compared the ISS to some national labs. We knew there 
was no direct analog to the ISS, but we looked to see what 
comparisons were relevant to how the space station and its 
research was managed. We recommended that there be a central 
management organization established to represent users of the 
ISS, oversee selections of research, conduct peer reviews, and 
ensure research is not duplicative. Other labs have used such 
an approach, and the National Research Council had recommended 
something similar. NASA is in the early stages of implementing 
this recommendation, and its effectiveness remains to be seen.
    The third area we have looked at in recent years is the 
development of commercial vehicles under both the COTS program 
and now the crew program. For COTS, we found that NASA had 
established reasonable controls for their Space Act agreements 
and they tailored them when appropriate. For the crew 
acquisition strategy, we recommended that NASA rethink its 
strategy in light of receiving about half the funding 
requested. NASA has restructured its strategy. We have not 
evaluated that revised effort. But throughout all this work and 
following the commercial crew development and commercial cargo 
development, we have recognized that these efforts are 
inherently risky, and in the latest report we did stress 
optimistic schedules in the commercial crew providers.
    Because of this, we have always emphasized the importance 
of followed discipline practices and knowledge-based practices 
for these efforts. These include things like not moving 
programs forward with a lot of unknown about costs, 
requirements, and technology. As the commercial efforts are 
entering their most difficult phases of development, it is more 
important that these practices be adhered to.
    That concludes my statement. I will be happy to answer any 
questions you have.
    [The prepared statement of Ms. Chaplain follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Hall. I thank you very much. Both were under five 
minutes. That is unusual, disciplined.
    General, I recognize you, sir. Turn your mic on, General, 
not that I could order a General around. A JG in the Navy 
wouldn't have much to say in your presence, sir.

                STATEMENT OF LIEUTENANT GENERAL

                      THOMAS P. STAFFORD,

              CHAIRMAN, NASA ADVISORY COUNCIL ISS

                OPERATIONAL READINESS TASK FORCE

    Lieutenant General Stafford. Thank you, Mr. Chairman, 
Ranking Member Johnson and distinguished Members of the 
Committee, it is a pleasure to be here and testify before you 
and express my views and concerns of my committee. I will 
answer the questions provided in your letter of invitation, Mr. 
Chairman, from the standpoint of expertise as a former 
astronaut, former Deputy Chief of Staff for Research, 
Development and Acquisition, and serving in many committees and 
chairman of those committees, both for the DOD and NASA, over a 
period of years. I have submitted a written statement for the 
record, and so in the essence of time, I will go right away to 
the questions.
    Question number one: Are NASA's current plans adequate to 
ensure that requirements for the ISS maintenance, growth and 
crew supplies and expendables, B, NASA's scientific research 
utilization, National Laboratory growth and utilization and 
other contingency maintenance, can they be met through the year 
2020?
    In response to your first question, for the near term, 
NASA's current plans are adequate to ensure that requirements 
for the ISS maintenance, growth, crew supply and expendables 
and the scientific research and the national lab utilization, 
contingency maintenance can be met for the immediate future for 
one to two years. This is in large part thanks to the supply of 
STS-134 and 135, and I want to acknowledge Mr. Gerstenmaier's 
leadership in pushing to have those last two shuttle missions 
launch and provide those supplies. Without those two shuttle 
missions, right now we would be in a serious situation and 
probably be considering how we would de-crew the space station 
to a certain number of people. So, Mr. Gerstenmaier, the 
country owes you a lot of thanks for that, sir.
    Beyond this time frame, say, beyond the mid-part of 2013, 
NASA becomes increasingly dependent on its projected flow of 
resupply needs and on the planned fleet of cargo vehicles which 
includes the ATV, the HTV, the Progress and the commercial 
resupply services.
    In joint assessment with the Aerospace Safety Advisory 
Panel headed by Admiral Joe Dyer, my ISS Advisory Committee 
concluded that the commercial vehicle launch schedule was 
overly optimistic, and we have not received sufficient data to 
conclude with confidence that the schedule could be met. This 
was the unanimous conclusion of both groups. Both commercial 
contractors, Orbital Science Corporation and Space Exploration 
Corporation, continue to experience significant delays in their 
development, testing, and their launch dates.
    With the present schedule beyond 2016, ISS resupply is 
almost totally dependent upon the CRS vehicles. However, I did 
notice that there were now proposed some HTV flights out there, 
which will help. And recently NASA has updated and revised the 
launch manifest, making the schedule more realistic, but this 
still may have some potential optimistic assumptions. The real-
time updates of the use of consumables and spares requirements 
are fed into the schedule. I think it is significant that NASA 
has been conservative in their requirements and their forecasts 
for spares and the orbital replacement units. These have gone 
longer than forecast, and this gives us some pad that can take 
some of the delays of the commercial resupply services.
    And with that, I will stand by to answer questions from the 
Committee. Thank you, Mr. Chairman.
    [The prepared statement of Lieutenant General Stafford 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Hall. I thank you, General, and I thank all of you 
for your testimony. I remind the Members that the rules limit 
questions to five minutes, and the Chair will at this point 
open the round of questions, and I recognize myself for five 
minutes.
    I am concerned about dates that have been assigned back 
through the years to launches. The initial date of the proposed 
flight of the second rocket or demo 2. I go with the first date 
I see, June 2009, when the initial proposal when the Commercial 
Orbital Transportation Service, or COTS, contract was signed I 
think in 2006 and gave us three years. It started in 2009, and 
there has been just time after time after time after time where 
now we are promised the date of April of 2012, and that 
schedule was changed in February, I think. This is April. I 
don't know what to think. I guess I will just go to asking 
questions for it.
    Mr. Gerstenmaier, we spent two decades and tens of billions 
of dollars to build the International Space Station with our 
international friends and people that trusted us. Now that it 
is finished, I hope NASA doesn't squander the incredible 
potential for lifesaving research and other important science 
because President Obama cancelled the shuttle's replacement. I 
am beyond frustration to know that our space station program is 
now dependent on a launch system of other countries to do the 
job that NASA ought to be doing. Congress has been pretty clear 
that NASA is not to rely totally on these commercial proposals, 
and I hear excuses and delay after delay for the supposedly 
simple act of delivering cargo to the space station.
    Mr. Gerstenmaier, NASA has spent $1.6 billion on this 
effort so far, and the Nation doesn't have very much to show 
for it. What does NASA get back when companies continue to 
delay, and what is the penalty when they don't perform? What do 
you need? And if they have a successful test flight, can we be 
assured it can meet the demands of the space station? I guess 
that is my question to you, sir. And are there any penalties if 
they don't meet it?
    Mr. Gerstenmaier. Yes, sir. When they misschedule and have 
delays, they owe us an equitable adjustment under the contract. 
This is under the contract phase for cargo delivery. So if they 
miss a launch date, they owe us either some financial 
consideration or additional analysis.
    Chairman Hall. What kind of financial consideration?
    Mr. Gerstenmaier. The things we have been able to do is, we 
wanted to add more refrigerator-freezer capability to their 
vehicles. We didn't have those in the initial contracts. That 
allows us to carry refrigerated samples to space station and 
also return them. That wasn't in the original contract, so for 
one of the delays we got as part of the compensation for that a 
redesign and new equipment to be added into their capsule to 
carry these precious biological cargo to station and return 
them. So for every slip that occurs beyond a 1-month period, we 
get some benefit back to us and we have to show how that 
provides equitable benefit to us equal to the amount of slip.
    And to your first point, they have spent quite a bit of 
time developing their launch pads. Their launch pads are now 
fully up and operational. Wallops still needs a little bit more 
work to get that done. That was done by the State of Virginia 
but Orbital will use that facility. The SpaceX launch pad was 
built by them. That was part of their investment that you 
discussed.
    Chairman Hall. Is that launch pad finished?
    Mr. Gerstenmaier. The one in Florida is finished and ready. 
They have already flown one demonstration flight off of that 
launch pad, or several, one for us and then one is another use. 
And then they have this next flight that is getting ready to 
launch off the pad but it is fully operational. They just did a 
wet dress several months ago and they are ready to go do the 
launch at the end of April. In the case of Orbital, the launch 
pad at Wallops is still behind schedule a little bit. That 
launch pad is being built by the Mid-Atlantic Regional Space 
Port. They are providing that to the Orbital Corporation to 
launch off of. They still have some more activation work to do 
at the launch pad, and that is what is holding up the cargo 
flights from Orbital. But they got started a little bit later 
in cargo delivery than the SpaceX team.
    Chairman Hall. All right. I think the people that you are 
dealing with have delivered before, have deep pockets, and 
ought to be able to produce. What do you need from Congress to 
stop the delays. Of course, we need more recognition of the 
needs of NASA rather than limiting us to less than one percent 
of the budget. We have asked the last three Presidents for 
those and not received them. So I guess that has to be part of 
your answer for our inability to keep the dates that have been 
set.
    I will ask General Stafford, from your experience, sir, 
what are some of the problems that are causing these delays and 
how can the government ensure that they get performed? Use your 
microphone, General.
    Lieutenant General Stafford. Here we go again.
    Chairman Hall. Don't let that happen anymore. Go ahead.
    Lieutenant General Stafford. From my experience as the Air 
Force Deputy Chief of Staff for Research, Development and 
Acquisition, and at that time I had acquisition. My budget was 
far more than the total NASA budget. Under that, you have some 
categories of the good, the bad and the ugly, and to be sure 
that they end up in the good, you need good, experienced 
program managers, people that have experience. You need insight 
and you need direction on how they do it. You have to look out 
for unrealistic lowball bids and unrealistic schedule by 
contractors and also by the government to lay on unrealistic 
requirements. In other words, they request technology that is 
not going to come on time.
    As I brought out at the Wright Brothers Memorial Trophy 
dinner, probably the record was set when I started the 117A. It 
was completely secret. It was very black, as they say. But we 
flew that airplane in less than two years and eight months, and 
it was operational in a little over three years, which is a 
modern record. And we pushed, and we had insight to it. It met 
all the FARs. We did bypass Air Force regulations but it met 
all the FARs and so we knew exactly where we were. We had the 
insight to it. I don't know that we have the insight.
    I have not been involved with the management in these 
delays. My committee looks at the safety and the operational 
part of it. When you go down to the good, the bad, the ugly, 
you review what has happened in the past just from reading open 
literature like the turbo pump on the space station main 
engine. It was bid in low at $150 million, $160 million. It 
ended up ten years later about $1.2 billion or $1.3 billion. 
And the same way with the Webb telescope this Committee knows 
about, when I read in open literature. It was way underbid and 
probably the technology was not there.
    So again, you have to have good program managers and you 
have to have good program structures. Now, the way these 
programs are structured, as I have observed from the outside--I 
have not been involved in management--under these Space Act 
agreements, which is other transactional authority, I don't 
know that it can really have the insight in the management that 
you would have if you have a good program manager, and we had 
some of the best in Apollo with General Sam Phillips, Dr. von 
Braun, probably some of the best, but they were right there on 
top of things.
    Chairman Hall. I have gone over my time. I thank you. 
Others will have other questions, I think.
    Now I recognize Ms. Johnson for seven minutes.
    Ms. Johnson. Thank you very much.
    Chairman Hall. Fair is fair.
    Ms. Johnson. Mr. Gerstenmaier, we are all aware that the 
first few years in International Space Station, time was spent 
assembling it and long before we could begin the research, but 
once the research was initiated and is ongoing, where is the 
focus now in research?
    Mr. Gerstenmaier. ISS is a very diverse research facility. 
There is an alpha magnetic spectrometer that is on the outside 
of space station that actually looks for antimatter and dark 
matter from the universe looking at potentially how the 
universe was formed. There is also some Earth observation 
equipment on board, the HICO-RAIDS instrument. It is a 
hyperspectral instrument that is looking at the ocean, looking 
at waves. There are some experiments being done now on 
combustion onboard space station. We recently did some things 
looking at combustion stability in space. The advantage of 
looking at it in space is, without gravity, the researchers can 
actually model the phenomena so then when look at more 
efficient gas turbine engines or more efficient automobile 
engines, they can take the knowledge that they gained on how 
the combustion actually works in low gravity, apply that here 
to the Earth. There is a lot of medical investigations going on 
aboard space station that deal with activities that can help us 
here on the Earth, things that help the elderly with bone loss. 
Stability issues that astronauts face can also be investigated 
on space station. So it is a wide variety of research. There is 
probably five to six or so investigations every day being done 
uniquely onboard the space station each and every day as we are 
in this next phase.
    Ms. Johnson. What areas do you think will bring the major 
breakthroughs between now and 2020?
    Mr. Gerstenmaier. Again, I think the advantage of the space 
station is the fact that the crews have a long period of time 
to work on the investigations. In other words, they are not 
scripted that they have to complete an investigation 
immediately in a certain amount of time. They can do research 
much like we would do on a recent lab here on the Earth. So if 
the astronauts see a unique phenomenon that occurs in space 
that the researchers didn't expect to see, they have time to 
now investigate that research and they may discover new 
phenomena or new things that never really existed. We are 
learning a lot about how biological samples behave in space, 
how bacteria become stronger, how viruses become stronger. We 
can use that information to essentially build vaccines 
potentially for us here on the Earth.
    So I think the advantage of space station is the uniqueness 
of being able to take time to really do research and be 
creative in the way you do research and not be on a structured 
timeline that limits the amount of knowledge that you can gain.
    Ms. Johnson. Thank you. But there is kind of a timeline 
that we are working against, and I have some real concerns in 
the vaccines as well as viruses. Do you feel you are closer to 
any kind of breakthroughs?
    Mr. Gerstenmaier. We have done research on salmonella and 
we have been able to develop essentially a strain of salmonella 
that is strong enough to cause the immune system to react but 
not strong enough to give you the disease, so that is 
essentially a vaccine. That is about ready to go into FDA 
trials. There has been a lot of work working with the FDA to 
get it into trials, but we were able to use a small organism to 
get through the first phases of the FDA process and then 
potentially it could go into FDA trials fairly soon. So the 
unique property that occurs with salmonella vaccine occurs with 
viruses and other things as well, so we could potentially 
explore developing new vaccines for viruses and other things as 
well onboard space station. So it gives a whole new research 
avenue for companies and pharmaceutical companies to pursue in 
space.
    Ms. Johnson. Thank you.
    Ms. Chaplain, how can Congress determine whether NASA is on 
track to meet the objectives by 2020?
    Ms. Chaplain. Major projects at NASA regularly report data 
to the committees on cost schedule performance and status. 
These projects I don't believe are among those, and that is one 
key way you could be asking for data to follow progress in 
addition to these hearings. That data comes in semi-yearly 
cycles and yearly cycles, so it might not be as timely as 
needed. We have ourselves an ongoing assessment of all major 
projects within NASA, and we do plan to include these efforts 
next year to help the Congress have more insight and oversight 
as well.
    Ms. Johnson. Feeling the pressure of 2020 approaching, does 
that add anxiety or add any more effort to reaching some 
conclusions? How do you internalize that date for research 
time?
    Ms. Chaplain. In terms of overseeing the commercial 
development efforts or in terms of research for the station? We 
have not revisited our previous work in terms of assessing how 
the station is being used for research. We made a 
recommendation when we did our review that they establish an 
organization to manage the research and prioritize it and 
ensure it is not duplicative. That is just getting underway, so 
the next year or so is really going to be critical to see how 
effective that mechanism is and is it going to be the best to 
optimize the space station's research.
    Ms. Johnson. This could be unfair, but with the direction 
of this Administration where it appears to be headed with less 
and less and less and less financial support, does that affect 
performance or direction or planning?
    Ms. Chaplain. It could possibly. I have seen in several 
agency budgets that money for S&T types of activities, research 
activities are being cut and it could affect plans that some 
agencies have had to use the ISS for their own research 
activities.
    Ms. Johnson. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Hall. Thank you.
    The Chair now recognizes the gentleman from Mississippi, 
Mr. Palazzo, for five minutes.
    Mr. Palazzo. Thank you, Mr. Chairman.
    Mr. Gerstenmaier, according to the GAO's testimony in 2011, 
NASA anticipated 56 flights to the ISS between 2012 and 2020 
and would likely be at risk of a shortfall to cover all the 
National Laboratory demands and margin for unseen maintenance. 
However, this month NASA told GAO that in spite of decrease in 
the anticipated flights to 51, NASA is no longer projecting a 
cargo shortfall. What changes have occurred to cause you to 
reduce the number of flights without having any impact on 
estimated needs for cargo?
    Mr. Gerstenmaier. Well, what has occurred is the failure 
rate of the onboard spares and equipment onboard space station 
has been less than what we originally predicted. We are seeing 
the hardware is performing better than we thought. It is 
lasting longer without maintenance and need for repair, so that 
gives us some of the margin that you described. We still have 
not taken fully into account what we actually observed for 
those failure rates. We still are biasing it more towards the 
conservative side, so we think there may be even some more 
margin if the hardware performs as good as it has been 
performing in the past several years.
    Mr. Palazzo. Ms. Chaplain, are you satisfied with NASA's 
justification and what information would you need to make sure 
they have conducted sound analysis?
    Ms. Chaplain. Yes. What was being said about the spares 
lasting longer does agree with what we were finding in our 
latest research. We had also heard that the space station was 
using fewer supplies now than before. They must have found ways 
to use things more effectively. We would probably like to see 
more information along those lines, and we haven't analyzed the 
latest data in great detail, so those are the kinds of things 
we would probably want to see behind it.
    Mr. Palazzo. Mr. Gerstenmaier, Ms. Chaplain in her 
testimony cited crew availability as a major constraint on the 
productivity of the ISS National Lab. How does NASA plan to 
address this constraint and how significant will it be going 
forward?
    Mr. Gerstenmaier. Crew time is clearly a precious commodity 
onboard space station. What we have been trying to do is reduce 
the amount of activities that the crew needs to do to take care 
of themselves. In some cases, we have looked at ways that we 
can do less medical investigations directly on the crews, so 
there is a little more time available for them. Some of the 
maintenance activities, we have been able to cut back and 
defer. Some of the testing we do on components, we have cut 
back, and what that is allowing is some more research time for 
the researchers to use the crews for those research activities.
    If we get commercial crew at some point, we would like to 
increase the number of crew members on the flights from three 
to four, and that would allow us to have additional crew member 
on orbit, which would also increase the crew time available for 
research.
    Mr. Palazzo. Thank you.
    Ms. Chaplain, do you care to comment?
    Ms. Chaplain. Crew time availability was a concern in our 
review. That was two years ago, so I do recognize that actions 
have probably been taken to kind of make that time smarter.
    Mr. Palazzo. I will kind of change it a little bit. Let us 
talk about the Soyuz.
    Mr. Gerstenmaier, do the Russians have the industrial 
capacity to produce additional launch systems after 2016 to 
satisfy crew transportation demand if commercial crew systems 
or the Space Launch System are not ready?
    Mr. Gerstenmaier. They have the industrial capability to 
manufacture the vehicles. Our typical lead time is roughly 
three years to maybe 2-1/2 years that we have to make known 
that we need a vehicle for our purposes, so we will have to 
order those vehicles in the 2013 time frame for flights in the 
later half of 2016 and early 2017.
    Mr. Palazzo. When would NASA--this is for you, Mr. 
Gerstenmaier. When would NASA and the international partners 
need to decide on extending the life of the ISS?
    Mr. Gerstenmaier. And by extending the life, you mean 
beyond 2020?
    Mr. Palazzo. Yes.
    Mr. Gerstenmaier. Probably in the 2015 time frame. We are 
estimating around December 2015. Again, that is based on us 
having to procure items about three years in advance, so then 
you could take 2021, subtract three years, and that is 2018 or 
so ordering time and then it takes us a little bit of time to 
work through the contracting activities. So we think sometime 
in 2015 we should be making decisions about whether we are 
going to extend beyond 2020. And we would have to do that also 
internationally, get approval from our international partners, 
etc. So that is a pretty lengthy process, but we would start 
that activity in 2015.
    Mr. Palazzo. Well, thank you all.
    Mr. Chairman, I yield back.
    Chairman Hall. Thank you. The gentleman yields back.
    I recognize Ms. Bonamici of Oregon for five minutes.
    Ms. Bonamici. Thank you, Mr. Chairman.
    I would like to thank all of you for your testimony today 
on this important hearing that is focused, I believe, 
appropriately on the challenges and opportunities of the 
International Space Station, and I wanted to ask you to discuss 
some educational issues and the value of the work being done on 
the ISS for educational purposes, and I recall, for example, 
Oregonian astronaut Susan Helms, who actually spent 163 days on 
the ISS, coming into Oregon schools and inspiring hundreds, if 
not thousands, of students about space and about science and 
especially the young girls. So that is just one example, and I 
wondered if you could please discuss how the ISS is being used 
currently to inspire and educate young people in science and 
technology and engineering and mathematics, the STEM 
disciplines. Do you have specific examples? And also, is there 
potential that is not being met?
    Mr. Gerstenmaier. One good example is, last week we 
concluded a science fair project with students onboard space 
station. We teamed with YouTube, Google and Space Adventures, 
and they sponsored a global international competition for 
students to present science fair projects to be performed in 
space. The age categories were 13-year-olds through 18-year-
olds. We received 9,000 videos throughout the world, three-
minute videos of science projects that students would like to 
perform on space station. We down-selected out of those to two 
finalists, whose experiments will actually fly to space station 
on HTV this summer and they will be performed by Suni Williams 
onboard space station in the fall. One winner was from Egypt, 
and two girls in the 13- and 14-year-old category were from the 
State of Michigan. It was pretty exciting to see the videos and 
the creativity the kids put together. The girls from Michigan, 
they focused on this bacteria and virus discussion I had. They 
were intrigued by that, so there is 13-year-old students trying 
to pick up the state-of-the-art research at the age of 13 and 
actually proposing an extremely wonderful experiment to be done 
on station.
    The Egyptian experiment dealt with a spider that jumps to 
catch its prey, so the question or hypothesis was, would this 
spider, how would it do in space when it jumps and, you know, 
it floats instead of uses gravity, would it be able to adapt 
and learn. So again, the students were pretty inquisitive of 
how they understood what the microgravity properties were and 
submitted pretty special investigations.
    The discussion you had with Susan Helms was the ham radio 
activities. We still do lots of ham radio activities in 
schools, and the response from kids is phenomenal.
    Ms. Bonamici. Thank you. Can you identify constraints that 
might--other than budget, of course, that might affect the ISS 
utilization for STEM education and outreach?
    Mr. Gerstenmaier. Again, I think crew time becomes a 
consideration, how much time the crew has available. As you 
stated, budget is always a constraint for us. We have made 
available some additional upmass like we have this summer to 
carry the students' experiments to space, so there is upmass 
available in the cargo manifest. So we have tried to 
accommodate it within our resources to make sure that kids get 
a chance to virtually participate in the space station and get 
a chance to see what the astronauts are doing.
    Ms. Bonamici. Terrific. Thank you.
    And Ms. Chaplain, in the past NASA has told the GAO that 
failures or significant delays in developing the commercial 
cargo transportation would be NASA to operate the ISS in a 
survival mode including going to a two-person crew, and under 
that scenario, the ISS would only conduct minimal science 
experiments. Is this still the anticipated scenario if the 
commercial cargo providers are significantly delayed or 
experiencing a failure?
    Ms. Chaplain. I believe what has already been said here is 
very on point, that if you have delays that extend beyond 2013, 
or into 2013 and beyond, you will see a lot of impacts on space 
station and a lot of scaling back of research. Whether it would 
actually take them to the survival mode is more for Mr. 
Gerstenmaier to answer.
    Ms. Bonamici. Mr. Gerstenmaier.
    Mr. Gerstenmaier. I think ultimately if we don't get the 
cargo in the time frame we need, we will have to cut back on 
research first and then eventually go to the survival mode. But 
we have diversity in cargo vehicles. We have the HTV, the ATV. 
We can use some limited upmass on Progress, and then we have 
the two commercial providers, so out of those five different 
entities, we think we have a broad enough variety of cargo 
providers that we can meet this challenge of utilizing the 
space station in the future.
    Ms. Bonamici. Thank you very much. I yield back.
    Chairman Hall. I thank the lady.
    I recognized Mr. Hultgren for five minutes.
    Mr. Hultgren. Thank you, Chairman, and thank you all for 
being here today. I appreciate your time and the information.
    A couple questions, specifically more timeline and plans 
with NASA. Mr. Gerstenmaier, I wonder if I could address these 
to you? The NASA Authorization Act of 2010 requires that NASA 
design the Multipurpose Crew Vehicle, Orion, to provide backup 
capabilities for cargo and crew transport to the space station 
in the event commercial or partner supply vehicles are unable 
to do so. I wonder if you could tell me specifically how NASA 
is doing, what they are doing now to ensure that Orion 
Multipurpose Crew Vehicle will be operational and ready in time 
to comply with the law?
    Mr. Gerstenmaier. We are proceeding as fast as we can with 
both the Multipurpose Crew Vehicle and the Space Launch System. 
We have planned a schedule uncrewed flight in 2017 and then our 
first crewed flight is in 2021. And 2017 is driven more by the 
hardware manufacturing ability and additional funding really 
doesn't move the 2017 date very much. That is where it sits. We 
have a pretty exciting test flight coming up here in 2014 that 
will give us key information on how well the Orion capsule 
performs. The 2021 date is driven a little bit more by budget. 
We would have the option of potentially moving that date 
forward as we refine our budgets to help if we need to, to try 
to get it in front of the end of space station. But it looks 
like with the MPCV and SLS, the earliest we could be 
potentially there to help out with station would be probably in 
the 2018 time frame.
    Mr. Hultgren. Okay. Following up a little bit, or just 
refining, I guess. NASA's fiscal year 2013 budget request I 
know just reduced Orion's funding by $200 million. Even though 
you have stated that these Orion and SLS are top priorities, 
again, wondering with that 2014 test flight of Orion, I know 
that is an uncrewed flight that is coming up but wondered what 
specific human spaceflight or life support work is being funded 
by NASA now to ensure that Orion will in fact be ready to jump 
in and act as backup to service space station if needed?
    Mr. Gerstenmaier. We are doing some limited life support 
development. It has ramped down a little bit. We also have 
quite a bit of life support equipment that we are actually 
using onboard the space station. It provides CO<INF>2</INF> 
removal and oxygen generation for the crew onboard station. 
That has direct application to the systems that would fly in 
Orion in the future. So we are doing some work along those 
lines to keep things moving forward as much as we can.
    You know, we have to make hard decisions and trade things 
across our budget. When we look at it, commercial crew had the 
potential of being there a little bit earlier than we can with 
the government systems, so we are pushing or aiming our 
direction towards the commercial crew activity to provide that 
service.
    Mr. Hultgren. The chairman had talked a little bit earlier 
of our reliance on the Russians right now, and I wonder, what 
is NASA's plan if a catastrophe, and again, we all hope and 
pray that never happens, but if a catastrophe occurs during the 
returning Soyuz capsule, what is NASA's plan to respond to that 
and how would the United States retrieve remaining astronauts 
on the station if something were to happen?
    Mr. Gerstenmaier. At this point, as I stated in my opening 
remarks, we are dependent totally upon the Russians for crew 
transportation. We have always been dependent upon the Russians 
for rescue capability from the space station, so that risk is 
still there. If we had some event that occurred where the Soyuz 
was not available for us, we would be in the situation where we 
would have to look at decrewing the space station. We would try 
to accelerate both commercial crew and the Orion SLS MPCV 
systems as much as we could to reestablish a crew presence as 
soon as we could on orbit from those events.
    Mr. Hultgren. Okay. And if you can comment on this but then 
I will open it up to the other witnesses as well, just 
wondering if you could talk about what you see as applications 
of value to the U.S. economy that we might be able to expect to 
see from the ISS over the next several years.
    Mr. Gerstenmaier. I think one of the biggest advantages is, 
there is unique properties in microgravity that exemplify 
themselves in microgravity such as the bacteria discussion I 
had with you, materials properties, crystal growth, etc. Our 
hope is that commercial companies, we can expose to them what 
these unique properties are, what NASA's research has shown in 
the past. These commercial companies can see these processes 
and then decide to try and experiment, take it to space station 
and see if they can develop one of these commercial processes 
that will help them gain an economic advantage globally. So 
things like vapor deposition, combustion research, fluid 
motion, all those things we think if we can expose to the 
commercial companies what the unique research can be done in 
space in those areas, we think the commercial companies can 
then exploit that to their economic advantage and gain a 
competitive advantage over other companies that don't take 
advantage of space-based research.
    Mr. Hultgren. Okay. I don't know if any of the other 
witnesses have any thoughts on economic benefits or benefits 
for our Nation over the next several years from the 
International Space Station.
    Ms. Chaplain. I would just comment that the nonprofit 
organizations set up for the station, it is one of their goals 
to bring in commercial companies into the research and increase 
that, and that could be beneficial, and I do recall earlier 
hearings here a few years ago where you had some commercial 
representatives talking about how they would count on the 
station more and more if they could get research up there, and 
they thought it would be beneficial to the economy.
    Mr. Hultgren. Thank you all very much. I yield back, 
Chairman.
    Chairman Hall. The gentleman yields back.
    Ms. Edwards of Maryland, five minutes.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you to our 
witnesses.
    Mr. Gerstenmaier, I want to actually focus on an issue 
related to the 2013 budget request for ISS. It appears that 
NASA plans--the plans for utilization and research or the ISS 
funding in the outyears will depend in part on assumed 
reductions to the operations and maintenance costs for the ISS. 
It looks as though NASA projects those O&M costs will drop more 
than $400 million over the five-year 2013 budget horizon. Is 
that correct?
    Mr. Gerstenmaier. I would have to look specifically at the 
budget numbers that you are looking at, but I think that 
general trend is there, and it is caused by when we retired the 
shuttle program, we had to redesign a lot of our spares and 
components. That shows up in the maintenance and operations 
budget. Once that redesign is complete, than that budget is no 
longer needed. Those spares are designed and they are ready to 
go fly.
    Ms. Edwards. Is that at all dependent also on the projected 
meeting of milestones by the--in the commercial cargo area?
    Mr. Gerstenmaier. That reduction is separate. This is 
development of the hardware that those vehicles would carry, 
the commercial cargo providers carry that cargo to orbit. So 
the actual ability to get the cargo and spares to orbit will be 
dependent upon the providers, but the budget reduction comes 
from the fact that we are no longer doing non-recurring 
engineering or redesigning components again here on the ground.
    Ms. Edwards. Okay. So let me just ask you, and we have 
focused a lot in other things about the commercial cargo crew 
and all of that, but I look over the next several months 
actually and there are a number of milestones that have to be 
met by the commercial providers. What will be the impact on the 
ISS if those milestones aren't met? One coming up, I think 
April 30th, right?
    Mr. Gerstenmaier. That is correct. The SpaceX demonstration 
flight would be on April 30th. We have margin on orbit in terms 
of spares and consumables and research along with our ATV and 
HTV flights that are flying, and to last essentially about a 
year, so we can stay in the current configuration doing the 
number of research investigations I described earlier for 
roughly about a year. Then beyond that, we are going to have to 
take some action if these providers have not delivered any 
cargo during that period. So we have been assuming that we will 
get maybe one or two commercial cargo flights this year. The 
demonstration flights carry a reduced amount of cargo but they 
will also help, even the demonstration flights will. So if 
those are successful, we will be able to push that date out 
further and continue with normal operations. So we need 
something to occur within about the next year.
    Ms. Edwards. So let me just ask this then, because I think 
that it is important to assure the committee. What is your 
confidence level in the commercial providers being able to meet 
those milestones including the important one in September of 
this year?
    Mr. Gerstenmaier. Again, I think within a year time frame, 
we will see the cargo providers start to make their first 
flights and then there will be some ramp-up time required for 
them to get operational and get into a pace, you know, a 
cadence of regular flights, and we have allocated some margin 
to go do that. You know, it is not a large margin but I think 
it is a reasonable plan to get that done.
    Ms. Edwards. So do you have a high level of confidence that 
they are going to meet those milestones this year?
    Mr. Gerstenmaier. They will meet the minimum milestones 
that I just described to you.
    Ms. Edwards. Let me just ask you about the reliability of 
the Soyuz because we have already seen, you know, at least some 
problems that caused delay. There is another launch that is 
planned for May 15th. Is that on target? And if it is not, what 
would that mean then to continued on-schedule operations and 
crew operations on the ISS?
    Mr. Gerstenmaier. That launch is on target. It is on 
schedule for the May 15th time frame. The Russians have talked 
to us about building another vehicle, both a cargo vehicle on 
their side, a Progress vehicle, and also Soyuz vehicle and 
having it in reserve so if a problem comes up, they would have 
another vehicle essentially ready to go fly in its stead if 
something occurred. The problem you described was in 
manufacturing of a Soyuz vehicle that was getting ready to go 
fly.
    Ms. Edwards. And so presuming that we meet that May 15th 
target for crew operations, we are fine, but if we don't meet 
the May 15th, what would be the impact on ISS operations and 
research?
    Mr. Gerstenmaier. Again, we probably have several weeks 
margin to that date, and we would end up having to return the 
crew and the Soyuz vehicle at roughly the 180-day, 200-day on-
orbit limit. When we do that, we would drop the crew size from 
six down to three and then that would result in a reduction in 
research when we make that crew size reduction.
    Ms. Edwards. Mr. Chairman, I think that my clock started 
late, so I am not going to take that whole five minutes that is 
still on there, but I do have one last question. I am curious 
as to with respect to the resignation of the center's Executive 
Director and particularly some of the very strong language that 
she used in criticizing both the political and other aspects of 
standing up the center as a nonprofit reaching out to agencies 
and to the private sector to fully utilize the ISS, whether it 
is really appropriate that this is a role for a nonprofit and 
how it is that that is going to be stood up so that we get more 
than 50 percent capacity in ISS usage for the United States.
    Mr. Gerstenmaier. It is a cooperative agreement we have 
with the nonprofit. They gave to us an annual performance plan 
of objectives and milestones that they were to accomplish 
during this year. I have sent them a letter and asked them to 
respond to us by today or tomorrow, we will see, on what their 
plan is to achieve those milestones that we have established 
with them, things such as they are supposed to reach out and 
bring some investigations in, they are supposed to do an 
evaluation model, etc., that sits in there. So we have 
objective milestones that we have asked them to give us an 
extra assurance that they can actually meet those in light of 
the uncertainties and the problems that they have had during 
startup.
    Ms. Edwards. And has the GAO, Ms. Chaplain, taken a look at 
the center and whether it has the capacity, really looked 
deeply at the criticisms that were leveled on the center's 
operations and its ability to meet those milestones?
    Ms. Chaplain. No, we have not been asked to look at the 
center and how effective it is yet. I would note that the 
organizations that operate research for the other labs that we 
visited, they are a bit different than this one. They tend to 
be consortiums of universities or contractors, so it is a 
little different situation, probably worth looking at.
    Ms. Edwards. Maybe, Mr. Chairman, as I yield, it would be a 
great idea for us to request a look at the center's operations 
because for me, the resignation of the Executive Director and 
the problems that she highlighted are really troubling with 
respect to trying to figure out a way that we make the maximum 
use of the space station and its research capacity. Thank you, 
and I yield.
    Chairman Hall. I agree with you, but what do you mean, take 
a look?
    Ms. Edwards. I mean perhaps we could ask for GAO to review 
the center, the nonprofit, the relationship that it has and the 
agreement with NASA and whether it is appropriate and prepared 
to meet the goals that have been set out so that we get more 
than 50 percent utilization capacity in the ISS.
    Chairman Hall. Yeah, I want somebody to go, don't you, to 
the station?
    Ms. Edwards. Yeah, I do. I want someone to go and I want 
experiments there, and I want more than 50 percent of----
    Chairman Hall. I went out to the West Coast with Mr. 
Rohrabacher, walked through SpaceX's place. I was impressed. I 
found a young man there with an impressive operation and high 
hopes. I came here in 1980 and I think it seemed like 1982 or 
1983, something like that, Orbital was here, a company with 
deep pockets and a history of success, and now we have one 
going to get ready by September 2012 or late April of 2012. To 
be continued, I guess. And we are very hopeful that somebody is 
going to get there to the space station, and I know you are, 
aren't you? Do you have any penalties or anything for failure 
of going past those times or do you have some expectation of 
that?
    Mr. Gerstenmaier. As I described earlier, I talked----
    Chairman Hall. One doesn't have a launch in place and the 
other does. I don't know what that adds into it.
    Mr. Gerstenmaier. The contract we have with them for an 
indefinite delivery, indefinite quantity contract so we could 
potentially add additional flights to one that is successful if 
one is achieving and making more milestones and has the ability 
to deliver earlier than the other.
    Chairman Hall. I recognize Mr. Rohrabacher for five 
minutes.
    Mr. Rohrabacher. Thank you, Mr. Chairman. I think that last 
suggestion that the Committee received, we ask for a GAO report 
on this. I think it is a request that we could all support and 
would be supportive of your leadership in that, Mr. Chairman.
    First and perhaps the most important question on my mind 
right now, Mr. Gerstenmaier, is, what happened to the spider?
    Mr. Gerstenmaier. We will find out this fall.
    Mr. Rohrabacher. All right. About the same time we find out 
about whether or not the commercial space crew is working or 
not. There has to be a relationship there somewhere.
    Let us see. So let me ask you this. In terms of, if we were 
not trying to go down the commercial path at all, if this 
commercial alternative had not been before us, would it--as 
compared to if it is successful, would it cost more for NASA to 
do this on its own, just within NASA and the Orion, etc., or 
would it cost less if we would have not gone the commercial 
route because of duplication that the chairman has mentioned?
    Mr. Gerstenmaier. For commercial cargo, we were able to 
bring on the two commercial providers and so far I think it has 
been discussed, we spent about $1.6, $1.8 billion on that. That 
is significantly less than we would have spent on a typical 
NASA full-up development of that activity. So we have the 
potential to really get this cargo capability at dramatically 
less cost than we would have paid under our traditional 
contracting.
    Mr. Rohrabacher. Even with the factor of, when you have 
competition, that means there are two different groups going 
and you are having to finance both, but even that, when you 
have competition in play and you have private sector cost 
savings in mind, that still gives us--if it works, and that is 
a big if, if it does work, that still means it was the right 
decision financially to go in that direction if it works. Okay. 
Because there is a lot of--Mr. Chairman, there is a great 
concern that we have more than one company involved, and I 
understand that, and just at first glance, it would look like 
that that is duplicative and thus it is a waste of money. In 
the private sector, we have this all the time where you have 
competition with different companies and it ends up in the long 
run if successful cost-effective for the taxpayer, and that 
would be the same way perhaps with airplane development, et 
cetera, et cetera.
    Let me ask this. So later on this year we are going to find 
out whether or not the commercial end of this strategy in terms 
of the commercial strategy of cargo is actually meeting its 
goal. Is that correct?
    Mr. Gerstenmaier. That is correct.
    Mr. Rohrabacher. Okay. And then the crew would be five 
years from now, we will find that out. Is that correct?
    Mr. Gerstenmaier. Yes. Our current projections are 2017 for 
crew.
    Mr. Rohrabacher. Okay. So if we will know within about--
would we know within two years whether or not the crew, the 
progress towards actually fulfilling the contract and meeting 
the deadline for crew, will we know that within two years 
whether they are on track?
    Mr. Gerstenmaier. Yes. We are about ready to issue a Space 
Act or award a Space Act. We received proposals for a 
commercial crew integration capability activity. That will kick 
off with awards potentially in July and run for a 21-month 
period. So by the end of that, we expect to have the designs at 
the critical design level and we should know whether they are 
making good progress or not.
    Mr. Rohrabacher. Because we need a three-year notice to 
give the Russians in order for them to build a vehicle that 
will make up if the commercials fail. So we will be watching 
with you and we would appreciate you keeping us informed as to 
the minute as these things progress.
    One last thought while I have 11 seconds, or maybe I am 
already over, I am not sure, but just to note, I noticed that 
the European Space Agency, the director of the European Space 
Agency was talking to the Chinese about the possibility of 
using the Chinese spacecraft and permitting it to dock at the 
ISS. Mr. Chairman, for the record, I would like to state my 
strong opposition to any cooperation with the Chinese dealing 
with the International Space Station. We should not be 
permitting their rockets to dock. We should not be depending on 
them. We should not be in cooperation with them. Their rockets, 
after all, are the product of the greatest theft of technology 
in the history of mankind and they are a belligerent power to 
the safety and security and prosperity of the people of the 
United States.
    So I just want to make sure that is on the record, and I 
would hope that our folks at NASA would deeply consider that at 
a time when I know they are being pressured to try to cooperate 
with the world's worst human rights abuser, and that is China. 
Thank you very much, Mr. Chairman.
    Chairman Hall. I will mark that down, Rohrabacher one, 
China, nothing.
    All right. I believe everyone has had an opportunity, but I 
would open it for two minutes to anybody else that wanted to 
make a statement or had some follow-up statement here. There 
are just one, two, three of you left.
    Ms. Johnson. Thank you, Mr. Chairman. I hope it won't take 
two minutes, but I would like to request that both NASA's 
letters to CASIS and their response be given to the Committee 
for the record. Thank you.
    Chairman Hall. The gentlelady yields back. Ms. Edwards, do 
either of you all have questions? Okay.
    I may take a couple of minutes here to ask Mr. 
Gerstenmaier, what is the current state of negotiations with 
the European Space Agency for future Automated Transfer 
Vehicle, or ATV, missions beyond the three remaining and does 
NASA assume any of ATVs, that they are going to be available 
beyond 2014?
    Mr. Gerstenmaier. In our latest assessment, we don't plan 
on using ATV vehicles beyond 2014. What we have been able to do 
is, we found a more efficient way to use propellant onboard the 
space station. We were able to feather the solar ray string 
drag periods. It reduces the propellant usage. We are also able 
to do maneuvers now with space station that require no 
propellant usage when we do the maneuvers. We use control gyros 
to make those maneuvers. So that has allowed us to essentially 
fill up the propellant tanks onboard space station so at this 
point the unique capability of the Automated Transfer vehicle 
to carry propellant is not needed. It also--the vehicle doesn't 
have any capability to carry external cargo, which is important 
to us. So when we project forward and we look at it, the ATV 
provides us really no unique capability beyond what we can get 
from commercial providers so we would like to provide that 
capability through commercial providers beyond 2015 time frame.
    We have not had any formal discussions with the Europeans. 
We have talked to them conceptually about what we just 
described to you. We need to also work that with the Russians 
because we are required to provide propellant to them. We will 
work that out internationally over the next year or so. We plan 
to have probably an agreement with the Europeans maybe at the 
end of this year.
    Chairman Hall. What is the current state of negotiations 
with the Japanese Space Agency for the future HTV missions 
beyond the five remaining? Does NASA assume any HTV capability 
will be available beyond 2016?
    Mr. Gerstenmaier. Again, when we look at HTV, it provides 
you a unique capability. It can carry external cargo, which is 
important to us. It also can carry batteries for us, which need 
to be replaced onboard space station. It is a much more 
effective vehicle to carry those than any of our other 
providers. It also has a large hatch where you can actually 
carry full research racks across the space station. So HTV has 
a lot of unique capabilities. We would like to have potentially 
approximately four HTVs from the Japanese in that period beyond 
2015. Again, we have not had those discussions with the 
Japanese. We have told them that we would like to have their 
vehicle and continue to use it. We will have those discussions 
probably in the next year but we would be looking for somewhere 
on the order of three to four HTVs to fill out that time frame 
between 2015 and 2020.
    Chairman Hall. Well, thank you.
    Ms. Chaplain or General Stafford, do either of you have any 
concerns or statements about these statements or assumption? I 
will recognize either of you. General.
    Lieutenant General Stafford. Mr. Chairman, I think it is a 
positive move that Mr. Gerstenmaier described as far as 
starting talks with the Japanese for the HTV because of the 
large volume it can carry and the payload it can carry up there 
because if we are only dependent upon the commercial and we 
have issues there that the HTV could certainly fill that in and 
help us there. That could then result in adequate research.
    Chairman Hall. Ms. Chaplain, do you have any suggestions or 
to close? Ladies always get the last----
    Ms. Chaplain. The last word? I like that.
    Chairman Hall. Yes, summation.
    Ms. Chaplain. I like having the last word. I think it is 
great if we could get more of them. The questions for me would 
be, with the production lines, can they be sustained that long? 
Are we going to face issues like obsolescence, things like that 
that you typically face, but the longer you can keep something 
you know that works going, the better in this case.
    Chairman Hall. All right. I thank you, and I thank the 
witnesses for their very valuable testimony and the Members for 
their questions. Members of the Committee will have some 
additional questions for you. If we do, we will respond to you 
in writing and ask you to respond back to us in writing. The 
record will remain open for two weeks for additional comments 
from Members.
    The witnesses are first thanked very much for your time it 
took to get you here and the time to prepare and the time you 
have given us and the time it will take you to get back to your 
work station. The witnesses are excused and this hearing is 
adjourned.
    [Whereupon, at 10:58 a.m., the Committee was adjourned.]

                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Mr. William Gerstenmaier


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Mrs. Cristina Chaplain



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               Appendix 2

                              ----------                              


                   Additional Material for the Record



                 GAO Contact and Staff Acknowledgements


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




</pre></body></html>
